Report No. D-2011-054                March 23, 2011




  U.S. Army Corps of Engineers, Civil Works,
         Vicksburg, Generally Met the
         Recovery Act Requirements
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
FAR                           Federal Acquisition Regulation
FBO                           Federal Business Opportunities
FPDS                          Federal Procurement Data System
J&A                           Justification and Approval
MR&T                          Mississippi River and Tributaries
O&M                           Operation and Maintenance
OMB                           Office of Management and Budget
QMAD                          Quantitative Methods and Analysis Division
USACE                         U.S. Army Corps of Engineers
                               INSPECTOR GENERAL 

                              DEPARTMENT OF DEFENSE 

                                 400 ARMY NAVY DRIVE 

                            ARLINGTON , VIRGINIA 22202-4704 




                                                                           March 23, 20 11

MEMORANDUM FOR COMMANDING GENERAL, U.S. ARMY CORPS OF
                 ENGINEERS
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY
               COMMANDER, U.S . ARMY CORPS OF ENGINEERS,
                 VICKSBURG DISTRICT


SUBJECT: U.S. Army Corps of Engineers, Civi l Works, Vicksburg, Generally Met the
         Recovery Act Requirements (Report No. D-2011-054)

We are providing this rep0l1 for your inf01111ation and use. U.S. Army Corps of Engineers,
Civi l Works, Vicksburg District (USACE Vicksburg), did not facilitate full transparency of
the American Recovery and Reinvestment Act of 2009 projects to the public, and
contractors may not have been required to adhere to Recovery Act requirements. We
considered management comments on a draft of this report when preparing the final
rep0l1.

The comments from the Commander, USACE Vicksburg, conformed to the requirements
of DoD Directive 7650.3. Therefore we do not require any additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5868 (DSN 329-5868).




                                             Patricia A. Marsh, CPA
                                             Assistant Inspector General
                                             Financial Management and Reporting
Report No. D-2011-054 (Project No. D2009-D000FH-0182.005)	                            March 23, 2011

                Results in Brief: U.S. Army Corps of
                Engineers, Civil Works, Vicksburg, Generally
                Met the Recovery Act Requirements
                                                           task orders and modifications to the FBO Web
What We Did                                                site. Also, USACE Vicksburg personnel
                                                           misinterpreted DoD policy to post J&A
We determined whether U.S. Army Corps of                   documents for noncompetitively awarded contract
Engineers, Civil Works, Vicksburg District                 actions to the FBO. As a result, USACE
(USACE Vicksburg), adequately planned, funded,             Vicksburg did not facilitate full transparency of its
initially executed, and tracked and reported eight         Recovery Act projects to the public, and
projects at Yazoo Basin, Enid Lake, Mississippi,           contractors may not have been required to adhere
and Tensas Basin, Beouf and Tensas Rivers, in              to Recovery Act requirements.
Arkansas and Louisiana, to ensure the appropriate
use of “American Recovery and Reinvestment Act             What We Recommend
of 2009” (Recovery Act) February 17, 2009,                 The Commander, USACE Vicksburg, should
funds.                                                     ensure that USACE Vicksburg, personnel:
                                                              •	 modify contract W912EE-05-C-0018,
What We Found                                                      modification P00066, to include the
USACE Vicksburg generally complied with                            required FAR clause;
planning and funding requirements for the eight               •	 consistently follow policies and
Recovery Act projects, valued at $6.3 million, we                  procedures to comply with OMB guidance
reviewed. Additionally, USACE Vicksburg had                        for Recovery Act projects and post
procedures in place to track and report on the                     presolicitation notices to the FBO; and
8 projects. However, USACE Vicksburg needs to                 •	 prepare and post J&A documents and
improve its initial execution of contract actions to               other contract actions to the FBO Web site
ensure transparency of Recovery Act projects.                      for noncompetitively awarded contract
Specifically, USACE Vicksburg did not:                             actions in accordance with DoD policy.
    •	 include one required Federal Acquisition
        Regulation (FAR) clause in one of five             Management Comments and
        contracts reviewed,
    •	 post presolicitation notices for two task
                                                           Our Response
        orders on the Federal Business                     The Commander, USACE Vicksburg agreed with
        Opportunities (FBO) Web site, and                  the recommendations and the comments were
    •	 prepare or post a Justification and                 responsive. No additional comments are required.
        Approval (J&A) document to the FBO                 Please see the recommendations table on the back
        Web site for a noncompetitively awarded            of this page.
        contract.
                                                           The Commander did not agree with the report
These conditions occurred because, according to            finding that USACE Vicksburg did not prepare or
USACE Vicksburg personnel, they did not receive            post a J&A for a contract modification to the FBO
timely guidance from USACE headquarters before             Web site. We have clarified the report finding to
they executed contract modifications using                 state why a J&A should have been posted to the
Recovery Act funds. In addition, USACE                     FBO Web site.
Vicksburg contracting officers stated they were
not certain whether they needed to post notices for
                                                       i
Report No. D-2011-054 (Project No. D2009-D000FH-0182.005)             March 23, 2011

Recommendations Table

        Management                  Recommendations          No Additional Comments
                                   Requiring Comment                Required
Commander, U.S. Army Corps of                               1, 2, 3
Engineers, Vicksburg District




                                          ii
Table of Contents

Introduction	                                                                     1


      Audit Objective                                                             1

      Recovery Act Background                                                     1

      Recovery Act Audit Requirements                                             1

      Recovery Act Contracting Requirements                                       2

      OMB Recovery Act Guidance                                                   3

      USACE Recovery Act-Funded Appropriations                                    3

      USACE Mission and Functions                                                 3

      Selected Projects at USACE Vicksburg                                        4

      Internal Controls Not Effective for Implementing Recovery Act               6


Finding. USACE Vicksburg Generally Met the Recovery Act Requirements              7


      USACE Vicksburg Generally Complied With the Recovery Act Requirements       7

      USACE Vicksburg Omitted One Required FAR Clause in One Contract             9

         Modification

      USACE Vicksburg Did Not Post Presolicitation Notices to the FBO Web Site   10 

      USACE Vicksburg Did Not Prepare or Post Justification and Approval         10 

         Document to the FBO Web Site

      Management Comments on the Finding and Our Response                        11 

      Recommendations, Management Comments, and Our Response                     12 


Appendices

      A. 	Scope and Methodology                                                  14 

             Use of Computer-Processed Data                                      15 

             Prior Audit Coverage                                                15 

      B. Recovery Act Criteria and Guidance	                                     16 

      C. USACE Allocation to the Vicksburg District Office by Appropriation      18 

      D. Required FAR Clauses for Recovery Act Contracts	                        20 


Management Comments

      USACE Vicksburg District	                                                  21 

Introduction
Audit Objective
Our objective was to determine whether the U.S. Army Corps of Engineers, Civil Works,
Vicksburg District (USACE Vicksburg), implemented Public Law 111-5, “American
Recovery and Reinvestment Act of 2009” (Recovery Act), February 17, 2009, in
accordance with the requirements in the Act and the Office of Management and Budget
(OMB) Memorandum M-09-15, “Updated Implementing Guidance for the American
Recovery and Reinvestment Act of 2009,” April 3, 2009 (OMB M-09-15). Specifically,
we determined whether USACE Vicksburg adequately planned, funded, initially
executed, and tracked and reported eight projects at Yazoo Basin, Enid Lake, Mississippi,
and Tensas Basin, Beouf and Tensas Rivers, in Arkansas and Louisiana, to ensure the
appropriate use of Recovery Act funds. See Appendix A for a discussion of our scope
and methodology.

Recovery Act Background
In passing the Recovery Act, Congress provided supplemental appropriations to preserve
and create jobs; promote economic recovery; assist those impacted by the recession;
provide investments to increase efficiency through technological advances in science and
health; and invest in transportation, environmental protection, and other infrastructure.
The Recovery Act also established unprecedented efforts to ensure the responsible
distribution of funds for its purposes and to provide transparency and accountability of
expenditures by informing the public of how, when, and where tax dollars were being
spent. Further, the Recovery Act states that the President and heads of the Federal
departments and agencies were to expend these funds as quickly as possible, in keeping
with prudent management.

Recovery Act Audit Requirements
The Recovery Act and implementing OMB guidance require projects to be monitored and
reviewed. We grouped these requirements into the following four phases: (1) planning,
(2) funding, (3) initial execution, and (4) tracking and reporting. The Recovery Act
requires that projects be properly planned to ensure the appropriate use of funds. Review
of the funding phase is to ensure the funds were distributed in a prompt, fair, and
reasonable manner. Review of the project execution phase is to ensure that contracts
awarded with Recovery Act funds were transparent, competed, and contained specific
Federal Acquisition Regulation (FAR) clauses; that Recovery Act funds were used for
authorized purposes; and that instances of fraud, waste, error, and abuse were mitigated.
Review of the execution phase also ensures that program goals were achieved, including
specific program outcomes and improved results on broader economic indicators; that
projects funded avoided unnecessary delays and cost overruns; and that contractors or
recipients of funds reported results. Review of the tracking and reporting phase ensures

                                            1

that the recipients’ use of funds was transparent to the public and that benefits of the
funds were clearly, accurately, and timely reported.

Recovery Act Contracting Requirements
The Recovery Act establishes transparency and accountability requirements. Federal
Acquisition Circular 2005-32, March 31, 2009, provides policies and procedures for the
Government-wide implementation of the Recovery Act and guidance on special contract
provisions. Federal Acquisition Circular 2005-32 amended the FAR and provided
interim rules that made FAR solicitation provisions and contract clauses immediately
available for inclusion in contracts for Recovery Act work.

The specific FAR Recovery Act requirements are for:

   •	    buying American construction material,
   •	    protecting contractor whistleblowers,
   •	    publicizing contract actions,
   •	    reporting, and
   •	    giving the Government Accountability Office and agency Inspectors General
         access to contracting records.

Federal Government organizations meet requirements for Recovery Act contract actions
by posting information on the Federal Business Opportunities (FBO) and Federal
Procurement Data System (FPDS) Web sites. FAR Subpart 5.7, “Publicizing
Requirements Under the American Recovery and Reinvestment Act of 2009,” directs
contracting officers to use the Government-wide FBO Web site (http://www.fbo.gov) to:

    •	   identify the action as funded by the Recovery Act,
    •	   post pre-award notices for orders exceeding $25,000,
    •	   describe supplies in a clear narrative to the general public, and
    •	   provide the rationale for awarding any contracting actions that were not both
         fixed-price and competitive.

FBO is the Federal Government’s central source of Federal procurement opportunities.
FBO is a Web-based portal that allows agency officials to post Federal procurement
opportunities and contractors to search and review those opportunities. Agencies also
post contract award notices on FBO. In addition, to provide transparency, FBO has a
separate section identifying Recovery Act opportunities and awards.

FPDS is the Federal Government’s central source of procurement information.
Contracting officers enter information, to include the Treasury Account Symbol, in the
FPDS for all Recovery Act contract actions. The Treasury Account Symbol enables
FPDS to provide transparency by generating and posting a report containing all Recovery
Act contract actions.




                                              2

OMB Recovery Act Guidance
Criteria for planning and implementing the Recovery Act continue to change as OMB
issues additional guidance, and DoD and the Components issue their implementation
guidance. OMB M-09-15 provides Government-wide guidance for carrying out
programs and activities enacted in the Recovery Act. The guidance states that the
President’s commitment is to ensure that public funds are expended responsibly and in a
transparent manner to further job creation, economic recovery, and other purposes of the
Recovery Act. OMB M-09-15 also requires contracting personnel to include appropriate
clauses of the FAR in their contract actions. See Appendix B for Recovery Act criteria
and guidance.

USACE Recovery Act-Funded Appropriations
Under the Recovery Act, Congress appropriated $4.6 billion to USACE Civil Works for
Operation and Maintenance (O&M), Construction, Mississippi River and Tributaries
(MR&T), Formerly Utilized Sites Remedial Action Program, Investigations, and
Regulatory Program. Table 1 provides a breakdown of the amount of Recovery Act
funds provided for each appropriation.
                Table 1. USACE Civil Works Recovery Act Programs
                       Appropriation                  Amount (in millions)
     Operation and Maintenance                              $2,075
     Construction                                            2,000
     Mississippi River and Tributaries                         375
     Formerly Utilized Sites Remedial Action Program           100
     Investigations                                             25
     Regulatory Program                                         25
        Total                                               $4,600

Table 2 shows the allocation of the funds USACE Vicksburg received. See Appendix C
for more details.
            Table 2. USACE Allocation to the Vicksburg District Office
                       Appropriation                   Amount (in millions)
     Operation and Maintenance                                  $26.7
     Construction                                                31.6
     Mississippi River and Tributaries                          125.5
        Total                                                  $183.8

USACE Mission and Functions
USACE Civil Works provides public engineering services in peace and war to strengthen
U.S. security, energize the economy, and reduce risks from disasters. USACE Civil
Works (1) develops and manages U.S. water resources; (2) protects, restores, and

                                           3
manages the environment; (3) responds to disasters and aids in recovery; and (4) provides
engineering and technical services. According to USACE Civil Works, this multifaceted
mission is accomplished in an environmentally sustainable, economically and technically
sound manner, through partnerships with other government agencies and nongovernment
organizations. USACE executes its programs through 8 regional divisions and 38 district
offices. A ninth division and three embedded districts support operations in Iraq and
Afghanistan. This report discusses Recovery Act projects at USACE Vicksburg.

Selected Projects at USACE Vicksburg
We made a nonstatistical selection of eight projects, valued at $6.3 million, at Yazoo
Basin, Enid Lake, Mississippi, and Tensas Basin, Boeuf and Tensas Rivers, in Arkansas
and Louisiana, for review. These projects were funded with MR&T Recovery Act funds.
The following projects were included. (See Appendix A for details on the scope of our
review.)

   •	 Yazoo Basin, Enid Lake. Enid Lake is part of the Yazoo Headwater Project,
      which was designed to help protect the Mississippi Delta from flooding. Enid
      Lake includes a dam, spillway, and fish hatchery and provides recreational
      activities such as fishing, boating, and camping. At the time of our site visit,
      USACE Vicksburg had solicited, awarded, or executed contract actions for
      11 projects, valued at $7.8 million, and planned contract actions for 10 projects,
      valued at $4.1 million, for the Yazoo Basin, Enid Lake (shown in Figure 1). We
      reviewed 7 of the 11 projects, valued at $5.3 million. Table 3 lists the Yazoo
      Basin, Enid Lake, projects we reviewed. USACE Vicksburg planned to use
      Recovery Act funds to dredge ramps to the lake; rehabilitate showers and
      restrooms at recreation areas; purchase a dump truck and work boat; pave access
      roads; and upgrade recreation area electrical services and dam safety equipment.
                                 Figure 1. Yazoo Basin, Enid Lake




          Source: U.S. Army Corps of Engineers, Vicksburg District

                                                 4

           Table 3. Projects Reviewed at Yazoo Basin, Enid Lake
                    Project Description                     Amount
    Purchase Dump Truck for Dam Operation                     $111,989
    Purchase of Loader for Dam Operation and                   264,414
    Maintenance
    Painting, Flooring, 2 Building Additions, and a            384,419
      Recreation Shelter
    Paving for public access to project facilities*          4,053,846
    Dredging Ramps to Provide Access to the Lakes              500,000
      Total                                                 $5,314,668
    *Three projects under one task order including paving roads to dams, project facilities, and flood
    control areas.

•	 Tensas Basin, Boeuf and Tensas Rivers. Boeuf and Tensas Rivers (shown in
   Figure 2) provide for channel improvement for flood control and afford adequate
   outlet drainage for 5,300 square miles in southeast Arkansas and northeast
   Louisiana. At the time of our site visit, USACE Vicksburg had solicited,
   awarded, or executed contract actions for three projects, valued at $2.8 million.
   We reviewed contract actions for one road paving project, valued at
   approximately $1 million. USACE Vicksburg also had planned contract actions
   for three additional projects, valued at $2.4 million, for the Tensas Basin, Boeuf
   and Tensas Rivers, projects.

                   Figure 2. Tensas Basin, Boeuf and Tensas Rivers




   Source: U.S. Army Corps of Engineers, Vicksburg District




                                               5

Internal Controls Not Effective for Implementing
Recovery Act
We determined that internal control weaknesses existed as defined by DoD
Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” January 4,
2006. USACE Vicksburg lacked controls to ensure that all contract actions obligating
Recovery Act funds included all required FAR clauses and that contract actions were
always posted to appropriate Government Web sites. We will provide a copy of the
report to the senior official responsible for internal controls at the U.S. Army Corps of
Engineers.




                                           6

Finding. USACE Vicksburg Generally Met
the Recovery Act Requirements
USACE Vicksburg generally complied with the planning and funding requirements for
the eight Recovery Act projects, valued at $6.3 million, reviewed. Additionally, USACE
Vicksburg had procedures in place to track and report on the Recovery Act projects.
However, USACE Vicksburg needs to improve its initial execution of contract actions to
ensure transparency of Recovery Act projects. Specifically, USACE Vicksburg
personnel did not:

   •	 include one required Federal Acquisition Regulation (FAR) clause in one of five
      contracts reviewed,
   •	 post presolicitations notices for two task orders on the Federal Business
	
      Opportunities (FBO) Web site, and
	
   •	 prepare or post a Justification and Approval (J&A) document to the FBO Web
      site for one noncompetitively awarded contract.

These conditions occurred because, according to USACE Vicksburg personnel, they did
not receive timely guidance from USACE headquarters before they executed contract
modifications using Recovery Act funds. In addition, USACE Vicksburg contracting
officers stated they were not certain whether they needed to post notices for task orders
and modifications to the FBO Web site. Also, USACE Vicksburg personnel
misinterpreted DoD policy to post J&A documents for noncompetitively awarded
contracts to the FBO. As a result, USACE Vicksburg did not facilitate full transparency
of its Recovery Act projects to the public, and contractors may not have been required to
adhere to Recovery Act requirements.

USACE Vicksburg Generally Complied With the
Recovery Act Requirements
USACE Vicksburg generally complied with the Recovery Act planning and funding
requirements and used the Recovery Act funds for the intended purposes. Specifically,
we reviewed eight projects, valued at $6.3 million, that USACE Vicksburg properly
                                           planned and funded with Recovery Act funds.
   …USACE Vicksburg competitively          Of the eight projects, USACE Vicksburg
     awarded four firm-fixed-price         competitively awarded four firm-fixed-price
    contracts for seven projects and       contracts for seven projects and issued a cost-
  issued a cost-plus-fixed-fee contract    plus-fixed-fee contract for one project. USACE
            for one project.               Vicksburg’s rationale for awarding the cost-
                                           plus-fixed-fee contract modification was that
uncertainties involved in the contract performance did not permit costs to be estimated
with sufficient accuracy to use any type of fixed-price contract. This rationale was
posted on the FBO Web site, as required by FAR.



                                            7

Proper Planning
USACE Vicksburg properly developed or obtained cost estimates, determined qualified
sources and competition requirements, and completed market research to allow for small-
business participation in accordance with OMB M-09-15. OMB M-09-15 states that
departments and agencies should support projects that have a demonstrated or potential
ability to achieve long-term public benefits by investing in an improved quality of life,
environmental protection, and other infrastructure that will provide long-term economic
benefits. USACE Vicksburg developed requirements and obtained cost estimates from
local dealers before sending requests for quotes to four service-disabled veteran-owned
companies to purchase dam safety equipment. In addition, USACE Vicksburg selected
backlogged maintenance projects that allowed for quick execution of funds, in keeping
with the intent of the Recovery Act.

Work package justification reports also showed that USACE Vicksburg began planning
for the projects we reviewed in FY 2005 and planning for the requirements 19 years ago.
For example, in 1991, USACE Vicksburg conducted a dam safety inspection and
concluded that “all projects visited had the bare minimum on-site equipment with which
to respond quickly to a dam safety emergency.” The inspection also concluded that the
equipment had exceeded its normal life expectancy and needed replacement.
Consequently, USACE Vicksburg purchased dam safety equipment to maintain the
required level of dam safety.

In addition, USACE Vicksburg properly used Recovery Act funds for road paving,
dredging, erecting a shelter, and constructing additional office space and storage bays to
existing buildings. These were within the scope of work for the eight projects we
reviewed. Figure 3 shows bays funded by the Recovery Act at Yazoo Basin, Enid Lake.
                          Figure 3. Bays at Yazoo Basin, Enid Lake




         Source: U.S. Army Corps of Engineers, Vicksburg District


                                                 8

Proper Distribution of Recovery Act Funds
USACE Vicksburg personnel properly distributed funds to projects in accordance with
Recovery Act requirements and OMB M-09-15. Specifically, the Work Allowance
Documents reviewed showed that USACE Vicksburg suballocated the funds promptly to
the Yazoo Basin, Enid Lake; and Tensas Basin, Boeuf and Tensas Rivers, projects. The
five contracts and other obligation documents reviewed also cited the appropriate
Recovery Act Treasury account fund symbols.

Proper Tracking and Reporting
USACE Vicksburg had procedures in place to track and report the Recovery Act projects
we reviewed and to ensure that contractors properly tracked and reported required
information in accordance with OMB M-09-15. 1 Specifically, USACE Vicksburg used
spreadsheets to track and compare monthly scheduled obligations to actual obligations
and expenditures per appropriation. USACE Vicksburg personnel also tracked funding
and scheduling of each Recovery Act project, and funding documents properly identified
the Recovery Act designation. USACE Vicksburg procedures also required contracting
officers to perform quarterly reviews of contractor reporting to the Federal Reporting
Web site http://www.federalreporting.gov. The quarterly reviews ensured that the
contractors posted accurate information to the Web site in accordance with
OMB M-09-15.

USACE Vicksburg Omitted One Required FAR Clause
in One Contract Modification
USACE Vicksburg personnel did not include a required FAR clause in one of the five
contracts we reviewed. Specifically, modification P00066 to contract W912EE-05-C-
0018, valued at $384,419, did not include FAR 52.225-21, “Buy American Act.” The
                                             contract modification was awarded on
     …USACE headquarters did not
                                             July 29, 2009. According to USACE
       provide guidance before the
                                             Vicksburg personnel, USACE headquarters
         execution of the contract
                                             did not provide guidance before the execution
    modification, and personnel had to
                                             of the contract modification, and personnel
  go back and modify contract actions.
                                             had to go back and modify contract actions.
In addition, USACE Vicksburg personnel stated that they did not include the Buy
American Act clause in modification P00066 because it was an in-scope modification to
a base service contract and not to a construction contract. However, the requirements of
modification P00066 included the “construction of a new, on grade, 40’ x 100’ pre-
engineered structure.” FAR 25.1102 requires that construction contracts using Recovery
Act funds should include the FAR 52.225-21 clause. As defined in FAR 52.225-21,
“construction materials include material or supplies brought to the construction site.”
Because a service contract was modified to include a construction project, as defined in


1
  The DoD Office of Inspector General is conducting a separate audit, Project No. D2009-D000FH-
0182.010, and will issue a separate report on USACE Civil Works recipient reporting of Recovery Act
funds.

                                                   9

FAR 52.225.21, USACE Vicksburg personnel should have included the Buy American
Act in modification P000666.

Because the clause was not included, contractors may not have been required to adhere to
Recovery Act requirements. USACE Vicksburg personnel should modify existing
Recovery Act contracts or task orders to include the required FAR clause. See Appendix D
for a summary of FAR clauses in USACE Vicksburg contracts we reviewed.

USACE Vicksburg Did Not Post Presolicitation Notices
to the FBO Web Site
USACE Vicksburg did not post presolicitation notices for two task orders issued on
contracts W912EE-09-D-0005 and W912EE-09-D-0008, valued at about $5.1 million, on
the FBO Web site. In addition, USACE Vicksburg did not timely post the modification
award notice to the FBO Web site. Contracting officers stated they were not certain
whether they needed to post notices for task orders and modifications. However, FAR
sections 5.704 and 5.705 require that pre-award and post-award contract actions for
orders of $25,000 or more, issued under task or delivery order, be publicized to enhance
transparency to the public. Also, on the “Contract Quarterly ARRA [American Recovery
and Reinvestment Act] Management Control Check List – V1,” 2 USACE Vicksburg
personnel checked “Yes” to a question indicating that both task orders were posted to the
FBO Web site as required by FAR 5.704(a)(2). USACE Vicksburg personnel should
post contract actions to facilitate full transparency of their Recovery Act projects to the
public.

USACE Vicksburg Did Not Prepare or Post Justification
and Approval Document to the FBO Web Site
USACE Vicksburg did not prepare or post a J&A document for noncompetitively
awarded modification P00066 to contract W912EE-05-C-0018 to the FBO Web site.
                                        USACE Vicksburg posted a rationale explaining
   However, USACE Vicksburg did         the use of noncompetitive procedures on the FBO
     not prepare or post the J&A        Web site. In addition to the rationale, the FBO
   document, as required by a DoD       posting stated, “See posted J&A for further
         policy memorandum.             information.” However, USACE Vicksburg did
                                        not prepare or post the J&A document, as required
by a DoD policy memorandum. USACE Vicksburg personnel stated that J&A, as stated
in FAR 6.303, was not required because it was a modification to a base contract.
Personnel also stated that “see posted J&A for further information” is system-populated
language and they had no control over it.




2
 This is a mandatory internal checklist (Fragmentary Order 22) that all USACE contracting offices are
required to perform. Answers to the questions on the checklist indicate whether USACE Vicksburg
followed the Recovery Act guidance.

                                                   10 

In a memorandum to DoD Components, 3 the Director, Defense Procurement and
Acquisition Policy, required that in addition to documenting the rationale for new
contract awards or modifications, entities should ensure that the appropriate J&A
document is posted on the FBO Web site. The posting of the J&A was a DoD
requirement, and by not posting the J&A to the FBO Web site and stating that it has been
posted, USACE Vicksburg did not ensure full transparency of its contracting process for
noncompetitive and other-than-fixed-price contracts that used Recovery Act funds.
USACE Vicksburg personnel should prepare and post J&A documents to the FBO Web
site for noncompetitively awarded contract actions.

Management Comments on the Finding and
Our Response

Management Comments
The Commander, USACE Vicksburg, did not agree with the report finding that J&A for
modification P00066 to contract W912EE-05-C-0018 should have been posted to the
FBO Web site. The Commander stated that the modification did not add “new work” to
the original contract as required by the Under Secretary of Defense for Acquisition,
Technology, and Logistics memorandum. Instead, the Commander stated that the
modification incorporated Recovery Act funding (accounting and appropriation data) to
an existing contract and that it was an administrative modification to ensure
accountability and visibility of work funded by the Recovery Act.

Audit Response
We agree that, generally, J&A for “in-scope” modifications that do not add “new work”
to existing contracts need not be posted to the FBO Web site. However, modification
P00066 added “new work” to contract W912EE-05-C-0018. The statement of work for
contract W912EE-05-C-0018 required the contractor to “furnish all labor, equipment,
fuel, supplies, transportation, supervision, and management to provide inspection,
operation, maintenance, repair, reconstruction and rehabilitation of project facilities and
features managed by the U.S. Army Corps of Engineers.” The contract modification
included a requirement for the contractor to furnish and install a “pre-engineered steel
building addition with three 20 feet bays at building number 657.” In addition, the
modification included “construction of a new, on grade, 40 [feet] by 100 [feet] pre-
engineered steel structure, with finished wall/ceiling office space, break area,
restroom/shower, finished storage areas and unfinished storage areas.” This is
construction, and it was not in the scope of the original contract. As defined in
FAR 52.225-21, “construction materials include material or supplies brought to the
construction site.” Therefore, USACE Vicksburg, should have prepared and posted a
J&A for the contract modification to the FBO Web site.


3
 Under Secretary of Defense for Acquisition Technology, and Logistics memorandum, “Updated
Instructions for Posting Pre-Solicitation and Award Notices; Reporting Contract Actions; and Reporting
Performance Assessment for Actions Funded by the American Recovery and Re-Investment Act of 2009,”
April 21, 2009.

                                                  11 

Recommendations, Management Comments, and
Our Response
We recommend that the Commander, U.S. Army Corps of Engineers, Vicksburg
District, ensure that USACE Vicksburg personnel:

1. Modify contract W912EE-05-C-0018, modification P00066, and other Recovery
Act contracts or task orders as necessary to include the required Federal
Acquisition Regulation clauses.

Management Comments
The Commander, USACE Vicksburg, agreed with the recommendation and stated that
the contracted work funded with the modification has been completed and the contract
was about to expire (on February 28, 2011) and a new contract was awarded to replace
W912EE-05-C-0018. The Commander also stated that should USACE Vicksburg
receive future Recovery Act funds, the district officials would ensure that the new
contract was modified to include the required FAR clauses. The Commander also noted
that contract W912EE-05-C-0018 was a service contract, not a supply contract, as stated
in the draft copy of the report.

Our Response
The Commander, USACE Vicksburg, comments are responsive, and no additional
comments are required. We have also changed the report to indicate that contract
W912EE-05-C-0018 is a service contract.

2. Consistently follow policies and procedures to comply with Office of
Management and Budget guidance for Recovery Act projects and post
presolicitation notices to the Federal Business Opportunities Web site.

Management Comments
The Commander, USACE Vicksburg, agreed with the recommendation and stated that
the Vicksburg District failed to post two pre-opportunity notices for paving task orders
funded by Recovery Act and issued on an indefinite-delivery, indefinite-quantity
contract. The Commander stated that these two task orders were issued early in the
Recovery Act efforts and that the requirements to post a pre- and post-award notice was
included on all other task orders. In addition, although USACE Vicksburg officials were
unable to provide any corrective actions for having failed to provide a pre- and post-
award notice on the FBO Web site, the Commander stated that if the Vicksburg District
received future Recovery Act funds, officials would prepare pre- and post-award notices
on all proposed work.

Our Response
The Commander, USACE Vicksburg, comments are responsive, and no additional
comments are required.


                                           12 

3. Prepare and post Justification and Approval documents and other contract
actions to the Federal Business Opportunities Web site for noncompetitively
awarded contract actions in accordance with the Federal Acquisition Regulation
and DoD policy.

Management Comments
The Commander, USACE Vicksburg, agreed with the recommendation and stated that
J&A documents and other contract actions would be prepared and posted to the FBO
Web site for noncompetitively awarded contract actions “that add new work to an
existing contract using Recovery Act funds.”

Our Response
The Commander, USACE Vicksburg, comments are responsive, and no additional
comments are required.




                                        13 

Appendix A. Scope and Methodology
We conducted this performance audit from December 2009 through December 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions. We believe that the
evidence obtained provides a reasonable basis for our conclusions based on our audit
objectives.

To accomplish our objective, we audited the planning, funding, initial execution, and
tracking and reporting of Recovery Act projects to determine whether efforts of USACE
Vicksburg complied with Recovery Act requirements, OMB’s guidance, the FAR, and
DoD implementing guidance. Specifically, we determined whether:

   •	 the selected projects were adequately planned to ensure the appropriate use of
      Recovery Act funds (Planning);
   •	 funds were awarded and distributed in a prompt, fair, and reasonable manner
      (Funding);
   •	 contracts contained required Recovery Act FAR clauses (Initial Execution); and
   •	 USACE Vicksburg had procedures in place to track and report Recovery Act
      projects and to ensure that contractors properly tracked and reported required
      information in accordance with OMB guidance (Tracking and Reporting).

The Quantitative Methods and Analysis Division (QMAD) of the DoD Office of
Inspector General selected most Recovery Act projects and locations using a modified
Delphi technique, which allowed us to quantify the risk based on expert auditor judgment
and other quantitatively developed risk indicators.

QMAD used additional predictive analytic techniques for public works Recovery Act
projects funded directly through USACE. QMAD factored in workload volume,
proposed costs, geographic districts, and USACE districts and regions in evaluating the
relative risk of problems with oversight and completion.

QMAD did not use classical statistical sampling techniques that would permit
generalizing results to the total population because there were too many potential
variables with unknown parameters at the beginning of this analysis. The predictive
analytic techniques employed provided a basis for logical coverage not only of Recovery
Act dollars being expended but also of public works projects managed by USACE.

Yazoo Basin
There were 21 projects for Yazoo Basin, Enid Lake, with a planned funding of over $11.1
million. We made a nonstatistical selection of 11 projects, with a planned funding of
about $6.6 million, for review. However, we reviewed only 7 of the 11 projects, valued
at $5.3 million. We did not review the remaining four planned projects because USACE
Vicksburg had not awarded contracts for those projects at the time of our site visit.

                                            14 

The seven projects we reviewed were executed under four contracts, which included an
indefinite-delivery, indefinite-quantity contract; a contract modification; an order against
a blanket purchase agreement; and a new contract. The contracts were for road paving,
dam safety equipment purchase, operation and maintenance, and ramp dredging. We
reviewed the solicitation and award documents for compliance with FAR and OMB
guidance.

We reviewed funding documents to ensure that the projects were funded with Recovery
Act funds. We viewed selected Web sites to verify contractor self-certifications and
reporting of other Recovery Act information. We also accessed selected Recovery Act
projects for physical inspection and observation.

Tensas Basin
There were six projects for Tensas Basin, with a planned funding of over $4.7 million.
We made a nonstatistical selection of two projects, with a planned funding of
$2.5 million for review. However, we only reviewed one project, valued at over
$1 million. At the time of our site visit, USACE Vicksburg had not awarded a contract
for the other project, valued at $1.5 million. The contract we reviewed was an indefinite-
delivery, indefinite-quantity contract for road paving. We reviewed the solicitation and
award documents for compliance with FAR and OMB guidance. We reviewed funding
documents to ensure that the projects were funded with Recovery Act funds. We
accessed several Web sites to verify contractors’ self-certifications and the reporting of
other Recovery Act information.

Use of Computer-Processed Data
We used computer-processed data from FBO, FPDS, and Online Representations and
Certifications Application Web site. We validated data from these computer systems by
comparing the data to hard-copy documentation related to the projects selected for review.
We also interviewed program officials responsible for reporting on Recovery Act
contract actions and for managing Recovery Act funding. From these procedures, we
concluded that the USACE Vicksburg data were sufficiently reliable for our purposes.

Prior Audit Coverage
The Government Accountability Office, the DoD OIG, and the Military Departments
have issued reports and memoranda discussing DoD projects funded by the Recovery
Act. You can access unrestricted reports at http://www.recovery.gov/accountability.




                                             15 

Appendix B. Recovery Act Criteria and
Guidance
The following list includes the primary Recovery Act criteria and guidance (notes appear
at the end of the list).

   •	 U.S. House of Representatives Conference Committee Report 111-16, “Making
      Supplemental Appropriations for Job Preservation and Creation, Infrastructure
      Investment, Energy Efficiency and Science, Assistance to the Unemployed, and
      State and Local Fiscal Stabilization, for the Fiscal Year Ending September 30,
      2009, and for Other Purposes,” February 12, 2009

   •	 Public Law 111-5, “American Recovery and Reinvestment Act of 2009,”
      February 17, 2009

   •	 OMB Memorandum M-09-10, “Initial Implementing Guidance for the American
      Recovery and Reinvestment Act of 2009,” February 18, 2009

   •	 OMB Bulletin No. 09-02, “Budget Execution of the American Recovery and
      Reinvestment Act of 2009 Appropriations,” February 25, 2009

   •	 White House Memorandum, “Government Contracting,” March 4, 2009

   •	 White House Memorandum, “Ensuring Responsible Spending of Recovery Act
      Funds,” March 20, 2009

   •	 OMB Memorandum M-09-15, “Updated Implementing Guidance for the
      American Recovery and Reinvestment Act of 2009,” April 3, 20091

   •	 OMB Memorandum M-09-16, “Interim Guidance Regarding Communications
      With Registered Lobbyists About Recovery Act Funds,” April 7, 2009

   •	 OMB Memorandum M-09-19, “Guidance on Data Submission under the Federal
      Funding Accountability and Transparency Act (FFATA),” June 1, 2009

   •	 OMB Memorandum M-09-21, “Implementing Guidance for the Reports on Use
      of Funds Pursuant to the American Recovery and Reinvestment Act of 2009,”
      June 22, 20092

   •	 OMB Memorandum M-09-24, “Updated Guidance Regarding Communications
      with Registered Lobbyists About Recovery Act Funds,” July 24, 2009

   •	 OMB Memorandum M-09-30, “Improving Recovery Act Recipient Reporting,”
      September 11, 2009

                                           16 

    •	 OMB Office of Federal Procurement Policy, “Interim Guidance on Reviewing
       Contractor Reports on the Use of Recovery Act Funds in Accordance with FAR
       Clause 52.204-11,” September 30, 20092

    •	 OMB Memorandum M-10-08, “Updated Guidance on the American Recovery
       and Reinvestment Act – Data Quality, Non-Reporting Recipients, and Reporting
       of Job Estimates,” December 18, 20092

    •	 OMB Memorandum M-10-14, “Updated Guidance on the American Recovery
       and Reinvestment Act,” March 22, 20102

    •	 White House Memorandum, “Combating Noncompliance With Recovery Act
       Reporting Requirements,” April 6, 20102

    •	 OMB Memorandum M-10-17, “Holding Recipients Accountable for Reporting
       Compliance under the American Recovery and Reinvestment Act,” May 4, 20102




1
  Document provides Government-wide guidance for carrying out programs and activities enacted in the
American Recovery and Reinvestment Act of 2009. The guidance states that the President’s commitment
is to ensure that public funds are expended responsibly and in a transparent manner to further job creation,
economic recovery, and other purposes of the Recovery Act.
2
 Document provides Government-wide guidance for carrying out the reporting requirements included in
section 1512 of the Recovery Act. The reports will be submitted by recipients beginning in October 2009
and will contain detailed information on the projects and activities funded by the Recovery Act.




                                                     17 

Appendix C. USACE Allocation to the
Vicksburg District Office by Appropriation
Type of Funding   Project Name                               Amount (in thousands)
O&M               Bayou Bodcau Reservoir                                    $2,110
O&M               Blakely Mt Dam, Lake Ouachita                                954
O&M               Caddo Lake                                                    94
O&M               Claiborne County Port                                         59
O&M               Degray Lake                                                7,117
O&M               J Bennett Johnston Waterway                                5,726
O&M               Lake Providence Harbor                                       423
O&M               Madison Parish Port                                           80
O&M               Mouth Of Yazoo River                                          55
O&M               Narrows Dam, Lake Greeson                                  2,247
O&M               Quachita and Black Rivers                                  6,791
O&M               Rosedale Harbor                                              581
O&M               Wallace Lake                                                 219
O&M               Yazoo River                                                   99
O&M               Yellow Bend Port                                             160
 O&M Total                                                                  26,715

Construction      Mississippi Environmental Infrastructure                  31,599
 Construction Total                                                         31,599

MR&T              Collection and Study of Basic Data                         3,965
MR&T              Dikes                                                      6,809
MR&T              Dredging                                                   1,553
MR&T              Greenville Harbor                                            549
MR&T              Lower Arkansas River, North Bank                           2,708
MR&T              Lower Arkansas River, South Bank                             333
MR&T              Mississippi River Levees                                   6,388
MR&T              Revetment Operations                                       6,246




                                        18 

Appendix C. USACE Allocation to the Vicksburg District
Office by Appropriation (cont’d)

Type of Funding                       Project Name             Amount (in thousands)
MR&T                   Revetments                                             19,222
MR&T                   Tensas Basin, Boeuf and Tensas Rivers                   5,934
MR&T                   Tensas Basin, Red River Backwater                       1,144
MR&T                   Vicksburg Harbor                                          535
MR&T                   Yazoo Basin - Upper Yazoo Projects                     11,980
MR&T                   Yazoo Basin, Arkabutla Lake                             9,306
MR&T                   Yazoo Basin, Big Sunflower River                        7,949
MR&T                   Yazoo Basin, Enid Lake                                 11,093
MR&T                   Yazoo Basin, Grenada Lake                              11,220
MR&T                   Yazoo Basin, Main Stem                                  2,651
MR&T                   Yazoo Basin, Sardis Lake                               11,298
MR&T                   Yazoo Basin, Tributaries                                1,446
MR&T                   Yazoo Basin, Yazoo Backwater Area                       2,190
MR&T                   Yazoo Basin-Greenwood                                     964
  MR&T Total                                                                125,483
   Total Vicksburg                                                         $183,797

Legend
O&M – Operation & Maintenance
MR&T – Mississippi River and Tributaries




                                             19 

Appendix D. Required FAR Clauses for
Recovery Act Contracts

                                                                                            Tensas Basin,
                                                  Yazoo Basin, Enid Lake                     Boeuf and
                                                                                            Tensas Rivers




                                                     O/M Contract
                                       Dump Truck/



                                                     Modification
                                       Purchase of




                                                                    Task Order




                                                                                               Task Order
                                                     to Existing
                                       Front End




                                                                                 Diameter
                                                                                 Dredging
                                                                    for Road




                                                                                               for Road
                                       Loader
FAR Clauses Required for the




                                                                    Paving




                                                                                               Paving
Recovery Act


FAR 52.203-15
                                           Y              Y            Y           Y              Y
Whistleblower Protection
FAR 52.204-11
Recovery Act Reporting                     Y              Y            Y           Y              Y
Requirements
FAR 52.212-4
Contract Terms and Conditions –            Y           N/A           N/A         N/A            N/A
Commercial Items
FAR 52.212-5 Alt II
Contract Terms and Conditions
Required to Implement Statutes or          Y           N/A           N/A         N/A            N/A
Executive Orders – Commercial
Items
FAR 52.214-26 Alt I
Audit and Records – Sealed                N/A          N/A             Y           Y              Y
Bidding
FAR 52.215-2 Alt I
Audit and Records – Negotiation            Y              Y          N/A           Y              Y

FAR 52.222-6
                                          N/A             N1           Y           Y              Y
Davis-Bacon Act
FAR 52.225-21 and 52.225-22
Use of American Iron, Steel, and          N/A             N            Y           Y              Y
Manufactured Goods
FAR 52.244-6
Subcontracts for Commercial
                                          N/A             Y            Y           Y              Y
Items and Commercial
Components
FAR 52.213-4
Terms and Conditions – Simplified         N/A          N/A           N/A         N/A            N/A
Acquisitions
Legend
“Y” – means contract appropriately included the clause
“N1” – means the clause was included in a base contract
“N” – means the contract inappropriately excluded the clause
“N/A” – indicates a clause that does not apply to the contract


                                                     20
USACE Vicksburg District Comments





                  Click to add JPEG file




                                 21
                         Final Report 

                          Reference





                           Revised





Click to add JPEG file




               22
Click to add JPEG file




               23
